<html>
<title> - ATTORNEY GENERAL GUIDELINES FOR FBI CRIMINAL INVESTIGATIONS, NATIONAL SECURITY INVESTIGATIONS, AND THE COLLECTION OF FOREIGN INTELLIGENCE</title>
<body><pre>[Senate Hearing 110-846]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-846
 
                  ATTORNEY GENERAL GUIDELINES FOR FBI
                   CRIMINAL INVESTIGATIONS, NATIONAL
                    SECURITY INVESTIGATIONS, AND THE
                   COLLECTION OF FOREIGN INTELLIGENCE

=======================================================================



                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2008

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
48-395                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
               CHRISTOPHER BOND, Missouri, Vice Chairman
DIANNE FEINSTEIN, California         JOHN WARNER, Virginia
RON WYDEN, Oregon                    CHUCK HAGEL, Nebraska
EVAN BAYH, Indiana                   SAXBY CHAMBLISS, Georgia
BARBARA A. MIKULSKI, Maryland        ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 RICHARD BURR, North Carolina
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                   Andrew W. Johnson, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                                CONTENTS

                              ----------                              

                           SEPTEMBER 23, 2008

                           OPENING STATEMENTS

Rockefeller, Hon. John D., IV, Chairman, a U.S. Senator from West 
  Virginia.......................................................     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     3

                               WITNESSES

Collins Cook, Elisebeth, Assistant Attorney General, Office of 
  Legal Policy, Department of Justice............................     6
Caproni, Valerie, General Counsel, Federal Bureau of 
  Investigation..................................................     7

                       SUBMISSIONS FOR THE RECORD

Prepared Statement of Elisebeth Collins Cook and Valerie Caproni.     9


                  ATTORNEY GENERAL GUIDELINES FOR FBI


                   CRIMINAL INVESTIGATIONS, NATIONAL


                    SECURITY INVESTIGATIONS, AND THE


                   COLLECTION OF FOREIGN INTELLIGENCE

                              ----------                              


                           SEPTEMBER 23, 2008

                                U.S. Senate
                   Select Committee on Intelligence
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m., in 
Room SH-216, Hart Senate Office Building, the Honorable Jay 
Rockefeller (Chairman of the Committee) presiding.
    Committee Members Present: Senators Rockefeller, Wyden, 
Feingold, Whitehouse, and Bond.

 OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, CHAIRMAN, A 
                U.S. SENATOR FROM WEST VIRGINIA

    Chairman Rockefeller. The Committee will come to order.
    Today the Senate Intelligence Committee examines issues 
related to the proposed Attorney General guidelines governing 
the activities of the Federal Bureau of Investigation within 
the United States.
    In early August, Attorney General Michael Mukasey contacted 
me and other leaders of the congressional Intelligence and 
Judiciary Committees to inform us that he would soon issue a 
new set of guidelines for the FBI to consolidate and harmonize 
five existing sets of investigative guidelines. These 
guidelines pertain to general crimes investigations, national 
security investigations, the collection of foreign intelligence 
information and reporting on civil disorders and 
demonstrations.
    The Attorney General later agreed to postpone issuing those 
proposed guidelines until after Congress had held hearings this 
month to examine them. I appreciate the Attorney General's 
decision to consult with Congress and his willingness to seek 
comments on the proposed guidelines, not only from the Hill, 
but also from selected representatives of civil liberties 
organizations on a read and return basis, which has already 
taken place.
    I regret, however, that the proposed guidelines have not 
been publicly released, by which I mean in a broader sense for 
broader debate and broader comment, not just the people who 
would cluster about the subject, but broader than that, because 
this is a huge decision. Circulating the actual proposed 
guidelines would be a constructive step in generating 
additional review and commentary.
    The Justice Department's decision to prohibit the Committee 
from retaining a copy of the draft guidelines in preparing for 
this hearing and to restrict their public distribution has been 
unhelpful and has unnecessarily complicated our review of them. 
In light of the recently documented abuses in the FBI's use of 
national security letters and continued concerns going back to 
9/11 with the Department's ability to carry out the national 
security mission, the Committee wants to ensure that the new 
guidelines are not only effective, but subjected to sufficient 
oversight.
    Last week Federal Bureau of Investigation Director Bob 
Mueller testified on the proposed guidelines before the House 
and Senate Judiciary Committees as part of the broader 
oversight hearings of the FBI. It is important, nevertheless, 
that the Intelligence Committee also consider the proposed 
guidelines, as their most important features concern the 
intelligence activities of the FBI.
    Our witnesses today are Assistant Attorney General Beth 
Cook and FBI General Counsel, Valerie Caproni. Both are able 
public servants, and they are experts within the Department on 
these issues. They are, in fact, the experts. We welcome their 
appearance before the Committee.
    I regret that neither the Attorney General nor the Deputy 
Attorney General were available to accept our invitation to 
join our witnesses in testifying on this important topic. But 
that's sort of for the record.
    Over the last 32 years, the Attorney General--in fact, 
since Edward Levy issued the first set of guidelines to 
establish direction and control over the internal security 
activities of the FBI, Attorney General guidelines have been a 
signature pronouncement of the nation's top legal officer.
    As the Levy guidelines have been revised over the years--
and they have a number of times, including up until just a few 
years ago--and emerging investigative issues have been 
addressed, these guidelines have represented what the Attorney 
General thinks is the appropriate balance between the 
government's duty to prevent crime and to deter threats to the 
national security and the protection of the rights of Americans 
under the Constitution and the rule of law. In striking that 
balance, the guidelines have been highly important to the 
Congress.
    As the Inspector General of the Department of Justice 
observed in a report on the FBI's compliance with existing 
guidelines, ``The adoption of the Levy guidelines were a factor 
in the decision by Congress in the late 1970s and early 1980s 
not to enact a statutory charter for the FBI.'' Simply put, the 
guidelines have given Congress confidence that the nation's 
highest law officer had acted and would continue to act to 
ensure that the FBI abuses exposed in the 1970s, which led to a 
variety of things, would not be repeated.
    Over the course of time, Attorneys General have not only 
amended the original guidelines, but have issued additional 
sets of guidelines. With respect to the Justice Department new 
proposal, it may be appropriate, as our witnesses will no doubt 
urge, to consolidate and make consistent the five sets of 
Attorney General guidelines, particularly in the area of 
checking leads and conducting investigations involving 
international terrorism, where the guidelines overlap to the 
greatest degree.
    This Committee has pushed the Department of Justice and the 
FBI to make improvements in the FBI's work as an intelligence 
agency. Consolidated and clarified Attorney General guidelines 
could represent an improvement for FBI agents and analysts, if 
they are carefully written with appropriate safeguards to 
prevent abuse and ensure accountability.
    The Department of Justice and the FBI, however, need to 
make the case why FBI agents need greater latitude to use 
sensitive investigative techniques such as physical 
surveillance and pretext interviews that may mislead law-
abiding American citizens, particularly outside of the 
terrorism context, without the factual predicates, higher level 
of approval and periodic review and renewal that have been 
required, not only before 9/11, but in Attorney General 
guidelines issued since that time.
    We'll also want to hear whether sufficient safeguards are 
built into the proposed guidelines and resources provided to 
protect the constitutional and legal rights of Americans 
through appropriate oversight authorities given to the national 
security division and other components of the Department of 
Justice.
    Before turning to the Vice Chairman for his opening 
remarks, I want to take a few moments to acknowledge the 
exemplary work of two members of our Committee who will be 
retiring from the Senate at the end of Congress, and it saddens 
me that they're not here at this particular moment because of 
their extraordinary service.
    And so, with the indulgence of my colleagues, I would just 
say that John Warner and Chuck Hagel have been absolutely 
invaluable to this Committee, not only in their knowledge, in 
their diligence, in their aggressiveness, in their intellectual 
curiosity, but also because of their distinguished personal 
characteristics.
    They're among the hardest working and the most 
knowledgeable members ever to sit on this Committee. We're 
losing both of them. It'll be very, very hard to fill those 
positions. Over the many years of their service at countless 
hearings and business meetings, Senator Warner and Senator 
Hagel have been strong and the key is very independent 
advocates for strengthening our intelligence community and 
keeping America strong. I personally will miss them both in 
every way.
    I now turn to Vice Chairman Bond for any remarks he would 
like to make.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. Thank you very much, Mr. Chairman. I 
join with you in wishing well our departing members and will 
pass along to them your very kind words.
    I'm pleased the Department of Justice and the FBI have 
taken the unprecedented step of consulting with Congress prior 
to the adoption of the guidelines. It make sense for us to 
discuss the merits of these consolidating guidelines prior to 
their adoption.
    And I welcome Ms. Caproni and Ms. Cook. We appreciate your 
service and look forward to your testimony.
    The new FBI guidelines, as has been indicated, trace their 
roots back to 1976, when Attorney General Ed Levy issued 
classified guidelines governing FBI counterintelligence and 
foreign intelligence investigations. These have been revised 
over the years, never an easy process. The last one occurred 
under General Ashcroft in 2003.
    That process took almost two years from the time the FBI 
formally requested an update of its foreign and 
counterintelligence guidelines. And there was a general 
consensus after 9/11 that the FBI's FCI guidelines were 
outdated and didn't provide sufficient flexibility to allow the 
FBI effectively to prevent and neutralize terrorist threats.
    Two main goals of the 2003 revision process: first were to 
remove the walls preventing the sharing of information within 
the FBI; second, to make the FCI guidelines as flexible as the 
FBI's criminal guidelines. They were a significant improvement 
over previous ones, and the FBI recognized that there were 
still key differences, however, between the criminal and 
intelligence guidelines.
    Before addressing some of those differences, I note that 
these guidelines are novel in that they govern both the FBI 
criminal investigations and intelligence operations. I think 
this consolidated approach simultaneously eliminates any 
remaining information-sharing walls, creates a framework under 
which the FBI intelligence activities can be conducted with the 
same flexibility as criminal investigations and operations.
    Now, this is a good thing. If we expect the FBI to be able 
to protect us against threats of terrorism and other national 
security threats, we should at least permit them the same 
latitude with all lawful steps to neutralize those threats, 
including those used every day to put ordinary criminals in 
jail.
    Additionally, these guidelines are basically unclassified, 
a remarkable departure from the past. We hope this will bolster 
public confidence.
    One of the key improvements in the 2003 guidelines was the 
creation of a threat assessment concept, clearly laying out 
activities the FBI could utilize prior to opening a formal 
preliminary or full investigation. The techniques available 
were based upon some of the activities permissible under the 
``prompt and limited checking of leads'' authority contained in 
the criminal guidelines. These new guidelines merge the two 
concepts under the category of assessments.
    It appears to consolidate a list of authorized assessment 
techniques, borrow the best from both sets of guidelines. It's 
important to remember that the real value of the assessment 
phase is to allow the FBI to use non-invasive techniques to 
determine quickly how best to invest its analytical and 
investigative resources.
    Without these assessment tools, the only alternative for 
the Bureau is to go through the bureaucratic step of opening up 
a predicated investigation, only to learn after one phone call 
there was no substance to it. Worse, the lack of an assessment 
phase keeps the FBI in a reactive mode and limits its ability 
to spot potential threats or criminal activities just over the 
horizon.
    Another improvement, I think, allows recruiting and tasking 
of sources during an assessment. Under the national security 
investigative guidelines, the FBI can only interview 
previously-established assets or sources during a threat 
assessment. The criminal guidelines never contained such a 
restriction. This restriction is not practical if the goal of 
an assessment is to help prevent an attack or quickly rule out 
an innocent person. Why should they be limited to going to 
previous sources?
    It makes sense the FBI should be allowed to task an 
existing source or recruit a new asset to gather information 
related to a threat or a future criminal enterprise in order to 
run to the ground the truth as quickly as possible. The ability 
to recruit and task assets during the ``limited checking of 
leads'' phase has worked well for years under the criminal 
guidelines. The authority to use this technique is long-
overdue, in my view, in the national security context.
    Another technique long available prior to the opening of a 
predicated investigation is to engage in observation or 
surveillance not requiring a court order. The current 
investigative guidelines do not explicitly authorize the use of 
such observation or surveillance during a threat assessment. 
But it's often useful in situations in which an unknown 
individual is meeting with a subject of a current 
investigation.
    In these situations, a photograph or physical surveillance 
that yields a license plate number or a street address should 
allow the FBI to use other assessment authorities to assess the 
need for additional investigations. And additionally, an 
important technique that's been included in the new guidelines, 
taken from guidelines, is the authority to conduct a pretext 
interview, simply an interview where an FBI agent does not 
disclose the FBI affiliation.
    It could be something as simple as a phone call to make 
sure that phone's being used by the investigation subject. Or 
it could be something more dangerous, like talking to a 
suspected drug dealer who might not react favorably to knowing 
he's being interviewed by an FBI agent. They tend to be a 
little bit shaky about that.
    Again, the technique has been routinely available to 
criminal investigators. I see no reason why it should not be 
used in the national security context, where we're talking 
about keeping our homeland, our families, you and me safe here 
in the United States.
    The guidelines contain a number of other key improvements 
that I strongly endorse. The FBI will now be able to obtain 
information from foreign governments during the assessment 
phase. Criminal investigations will be able to access 
commercial databases during the assessment phase. The FBI may 
continue to use enterprise investigations focusing on 
comprehensive investigations of a group or organization.
    The FBI will be explicitly authorized to be more proactive 
in the use of assessment techniques in the conduct of strategic 
analysis. The guidelines maintain the historical respect for 
the least intrusive means concept and the exercise of First 
Amendment and other protected rights. And the guidelines 
explicitly preserve the application of the Attorney General's 
guidance regarding the use of race by federal law enforcement 
agencies.
    I wrap up by thanking you and all the men and women who 
participated in what must have been a long and tedious 
negotiation and approval process. It appears to me that all the 
hard work was well worth it. The guidelines, in our view, are a 
marked improvement over the predecessor guidelines and should 
protect both our civil liberties and our national security. 
Please convey our congratulations to the Attorney General and 
the team. I would urge that the Attorney General issue the 
guidelines immediately.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you.
    And, Ms. Cook, we would be delighted to hear from you 
first, if that is your preferred order.

         STATEMENT OF ELISEBETH COLLINS COOK, ASSISTANT

ATTORNEY GENERAL, OFFICE OF LEGAL POLICY, DEPARTMENT OF JUSTICE

    Ms. Cook. Mr. Chairman, Vice Chairman Bond and members of 
the Committee, thank you for the opportunity to appear before 
you today to discuss the Attorney General's guidelines for 
domestic FBI operations.
    As discussed in depth in our joint statement for the 
record, we believe that these guidelines will help the FBI 
continue its transformation from the preeminent law enforcement 
agency in the United States to a domestic intelligence agency 
that has a national security mission and law enforcement 
mission.
    The changes we have made to the guidelines have been 
focused and relatively narrow. First and foremost, we have 
increased the range of techniques that would be available to 
assess the potential threat to national security to include 
techniques already available at the same investigative stage 
when tracking down a lead as to criminal activity--
specifically, allowing agents to recruit and task sources, 
conduct physical surveillance that does not require a court 
order and conduct interviews without explicitly identifying 
themselves as agents for the precise purpose of the interview, 
so-called pretext interviews.
    In practice, we believe that these changes will allow the 
FBI to take significant steps forward in its change to a 
proactive intelligence-driven agency.
    Second, the consolidated guidelines reflect a change in 
approach to oversight on the national security side, one that 
we believe will result in more comprehensive and effective 
oversight over time. The guidelines reflect a shift in 
oversight that was accomplished primarily through notice to 
main Justice and filings to the FISA court to oversight now 
accomplished through a combination of a dedicated oversight 
unit within the national security division, the Department's 
Office of Privacy and Civil Liberties, a dedicated compliance 
unit within the FBI, on-site audits, notices, filings with the 
FISA court and reports.
    Perhaps equally important to today's discussion, though, is 
a brief description of what we have not changed in the draft 
consolidated guidelines. In 2003, the Attorney General issued 
new guidelines governing the investigation of threats to the 
national security. Reflected in that set of guidelines was an 
important and novel approach for national security cases, 
namely, that there must be available some level of information 
gathering prior to the opening of a formal investigation.
    In the national security guidelines, that level of activity 
was the threat assessment. On the criminal side, the FBI 
already had the ability to check out leads without opening a 
formal investigation. We have carried that basic notion in 
structure into the consolidated guidelines.
    The ability to ask and answer questions such as whether 
there is a presence of a particular terrorist organization in a 
given field office is not a new one to the consolidated 
guidelines. What we have tried to do instead is to allow the 
FBI to answer that question more efficiently and more 
effectively through additional techniques, techniques that 
would have been available had the question been, is there a 
presence of a particular gang in a given field office. We have 
not changed our basic structure. The standard remains the same 
to open a preliminary investigation.
    Some have also raised concerns about the proper role of 
race or ethnicity in FBI investigations and intelligence 
gathering. Although difficult questions, these are not new 
questions. And we have not changed our approach in this area.
    The balance struck by the Attorney General in the 2003 
guidance on the use of race by federal law enforcement agencies 
remains in full force with the consolidated guidelines. At the 
end of the day, it is simply not feasible to eliminate race, 
ethnicity or even religion as a potential factor. Consider a 
suspect description that includes the perpetrator's race or an 
investigation of organizations such as the Aryan Brotherhood or 
the IRA.
    But it is also the case that race, ethnicity and religion 
alone are not and should not be sufficient to open an 
investigation. The use of these factors is and should be a 
matter of serious discussion, and it has been throughout our 
process. After extensive consideration, we believe the balance 
was struck appropriately five years ago.
    We've appreciated the opportunity to work with you and your 
staff and are grateful for the thoughtful comments we've 
received during our discussions. I appreciate the opportunity 
to be here today to continue that process. In response to your 
comments today and thus far, we anticipate making changes to 
the guidelines before they are finalized.
    Mr. Chairman and members of the Committee, I look forward 
to your questions.
    Chairman Rockefeller. Thank you very much, Ms. Cook.
    And now, Ms. Caproni.

 STATEMENT OF VALERIE CAPRONI, GENERAL COUNSEL, FEDERAL BUREAU 
                        OF INVESTIGATION

    Ms. Caproni. Good afternoon, Chairman Rockefeller, Vice 
Chairman Bond and members of the Committee. I'm pleased to be 
here today.
    We are here today to discuss the new Attorney General 
guidelines for domestic FBI operations, which are in the 
process of being finalized, which have been briefed to your 
staff and which Ms. Cook just discussed in some detail. With 
the help and input of this Committee, it is my hope that we can 
make these guidelines effective for agents and analysts 
operating in the field in the near term.
    Approximately 18 months ago, the FBI asked the Department 
of Justice to consider combining three primary sets of 
guidelines that govern our investigations--the so-called 
general crimes guidelines, the national security investigative 
guidelines, or the NSIG, and the supplemental guidelines 
governing collection of foreign intelligence. We asked them to 
combine them because we believe certain restrictions in the 
NSIG were interfering with our ability to become an 
intelligence-driven agency and that the differences were not 
supportable from a public policy perspective.
    Finally from a compliance perspective, having different 
sets of rules to govern essentially identical conduct depending 
on how it is labeled is not ideal. To give you just a few 
examples of the inconsistencies, the guidelines governing 
national security investigations prohibited recruiting or 
tasking sources unless the FBI had a preliminary investigation 
or a PI open. There was no such prohibition in the general 
crimes guidelines.
    The NSIG also prohibited physical surveillance other than 
casual observation without a PI opened. The difference between 
surveillance and casual observation was something close to a 
Jesuitical or Talmudic question.
    The general crimes guidelines which governed other criminal 
investigations did not contain such a limitation. So, 
ironically, in many instances an agent could readily use 
physical surveillance to assess whether a particular location 
was being used for drug dealing but not for terrorist training.
    In the past, these rules may have been sufficient for the 
threats they were intended to address. But criminal threat and 
national security threats do not fall neatly into separate 
categories. Different rules should not apply depending on how 
the agent decides to describe what he or she is investigating.
    I must emphasize that despite the headlines of some 
newspaper articles, the new guidelines do not give the FBI any 
new authorities. Instead, they remove the last vestige of the 
metaphorical wall that has separated criminal and national 
security matters for years and has limited the use of certain 
authority that we have in the national security realm. They 
will replace several sets of guidelines with a single, uniform 
set of rules to govern the domestic activities of our 
employees.
    The guidelines set consistent rules that apply across all 
operational programs, whether criminal or national security. 
They will give us the ability to be more proactive and to 
continue our transformation into an intelligence-driven 
national security and criminal organization. They will 
eliminate virtually all inconsistencies that present compliance 
challenges and that have confused our employees.
    Several bipartisan commissions, the Congress and the 
American people have asked and expect the FBI to be able to 
answer questions such as, are there sleeper cells in this 
country planning attacks like those that occurred in London or 
Madrid. In order to answer those questions, the FBI must expand 
its intelligence collection beyond that which is collected as 
part of predicated investigations. We must examine threats in a 
proactive fashion and not simply rely on information that is 
provided to us in order to initiate action.
    To achieve the mission of protecting the United States 
against terrorist and criminal threats, the Director is 
insisting that our employees think proactively about the 
threats and vulnerabilities in their areas of responsibility. 
Our employees are up to the task, but they need consistent, 
clear guidelines that do not vary based on whether they're 
considering a threat from MS-13, Hizbollah or a foreign 
government.
    The FBI has the responsibility of protecting the country 
from national security and criminal threats while upholding the 
Constitution. We will fail as an agency if we safeguard the 
country from terrorism but sacrifice the privacy and civil 
liberties that make us the country we are today.
    We know that we can only achieve our mission of keeping the 
country safe if we maintain the trust and confidence of the 
American people. We understand that with these new guidelines 
comes the responsibility to ensure that the authorities granted 
are used responsibly and consistently with the best traditions 
of the FBI.
    Mr. Chairman, I would like to conclude by thanking this 
Committee for the time your staff spent with us discussing the 
guidelines. As you know, historically the Attorney General has 
not brought Congress or outside groups into the process of 
drafting guidelines. Having the consultation process is new, 
and I believe it was extremely helpful.
    We accepted many of the specific suggestions we received, 
and we have reconsidered certain provisions based on 
discussions with your staff as well as the advocacy groups. 
Although these are the Attorney General guidelines and they 
govern the FBI's activities, the truth is that everyone has an 
interest in making sure that we get the authority that we need 
to achieve our mission and that the authority comes with 
sufficient oversight and compliance mechanisms to ensure that 
the FBI does not achieve its mission at the cost of privacy and 
civil liberties.
    I'm happy to answer any questions that you may have.
    [The prepared statement of Ms. Cook and Ms. Caproni 
follows:]
    Prepared Statement of Elisebeth Collins Cook, Assistant Attorney
  General, Office of Legal Policy, Department of Justice and Valerie 
       Caproni, General Counsel, Federal Bureau of Investigation
    Mr. Chairman, Vice Chairman Bond, and Members of the Committee, 
thank you for the opportunity to appear before you today to discuss the 
Attorney General's Guidelines for Domestic FBI Operations. We believe 
that these guidelines will help the FBI continue its transformation 
from the pre-eminent law enforcement agency in the United States to a 
domestic intelligence agency that has a national security mission and 
law enforcement mission.
    The new guidelines provide more uniform, clear, and straightforward 
rules for the FBI's operations. They are the culmination of prior 
efforts to revise the FBI's operating rules in the wake of the 
September 11 terrorist attacks. They are consistent with and help 
implement the recommendations of several distinguished panels for the 
FBI to coordinate national security and criminal investigation 
activities and to improve its intelligence collection and analytical 
capabilities.
    These guidelines will protect privacy rights and civil liberties, 
will provide for meaningful oversight and compliance, and will be 
largely unclassified. Consequently, the public will have ready access 
in a single document to the basic body of operating rules for FBI 
activities within the United States. The guidelines will take the place 
of five existing sets of guidelines that separately address, among 
other matters, criminal investigations, national security 
investigations, and foreign intelligence collection. They are set to 
take effect on October 1, 2008.
    We have greatly appreciated the interest of this Committee and 
others in these guidelines. Over the past six weeks, we have made a 
draft of the guidelines available for review to the Members and staff 
of this Committee, the House Permanent Select Committee on 
Intelligence, the Senate Judiciary Committee, and the House Judiciary 
Committee. We have provided briefings (and made the draft guidelines 
available for review) to a wide range of interested individuals and 
groups, including Congressional staff, public interest groups ranging 
from the American Civil Liberties Union (ACLU) to the Arab-American 
Anti-Discrimination Council (ADC) to the Electronic Privacy Information 
Center (EPIC), and a broad set of press organizations. The dialogue 
between the Department and these individuals and groups has been, in 
our view, both unprecedented and very constructive. We have appreciated 
the opportunity to explain why we undertook this consolidation, and we 
are amending the draft guidelines to reflect feedback that we have 
received.
I. Purpose of the Consolidation Effort
    Approximately 18 months ago, the FBI requested that the Attorney 
General consider combining three basic sets of guidelines--the General 
Crimes Guidelines, which were promulgated in 2002, the National 
Security Investigative Guidelines (NSIG), which were promulgated in 
2003, and a set of guidelines that are called the Supplemental Foreign 
Intelligence Guidelines, which were promulgated in 2006.
    This request was made for three primary reasons. First, the FBI 
believed that certain restrictions in the national security guidelines 
were actively interfering with its ability to do what we believe 
Congress, the 9/11 Commission, WMD Commission, and the President and 
the American people want the FBI to do, which is to become an 
intelligence-driven agency capable of anticipating and preventing 
terrorist and other criminal acts as well as investigating them after 
they are committed. The clear message to the FBI has been that it 
should not simply wait for things to fall on its doorstep; rather, it 
should proactively look for threats within the country, whether they 
are criminal threats, counterintelligence threats, or terrorism 
threats.
    Second, the FBI believed that some of the distinctions between what 
an agent could do if investigating a federal crime and what an agent 
could do if investigating a threat to national security were illogical 
and inconsistent with sound public policy. Specifically, the FBI argued 
that there was not a good public policy rationale for (a) the 
differences that existed, and (b) the guidelines that governed national 
security matters to be more restrictive than those that governed 
criminal matters.
    Third, the FBI concluded that having inconsistent sets of 
guidelines was problematic from a compliance standpoint. The FBI made 
its request for consolidation after the Inspector General had issued 
his report on the use of National Security Letters. That report helped 
crystallize for the FBI that it needed stronger and better internal 
controls, particularly to deal with activities on the national security 
side, as well as a robust compliance program. The FBI argued that, from 
a compliance standpoint, having agents subject to different rules and 
different standards depending on what label they gave a matter being 
investigated was very problematic. The FBI asserted that it would 
prefer one set of rules because compliance with a single set of rules 
could become, through training and experience, almost automatic.
    The Department agreed with the merits of undertaking this 
consolidation project, and the result is the draft guidelines we are 
discussing today. These guidelines retain the same basic structure of 
predicated investigations on the one hand, and pre-investigative 
activity on the other--currently called threat assessments on the 
national security side and prompt and limited checking of leads on the 
criminal side. The standard for opening a preliminary investigation has 
not changed and will not change.
    The most significant change reflected in the guidelines is the 
range of techniques that will now be available at the assessment level, 
regardless of whether the activity has as its purpose checking on 
potential criminal activity, examining a potential threat to national 
security, or collecting foreign intelligence in response to a 
requirement. Specifically, agents working under the general crimes 
guidelines have traditionally been permitted to recruit and task 
sources, engage in interviews of members of the public without a 
requirement to identify themselves as FBI agents and disclose the 
precise purpose of the interview, and engage in physical surveillance 
not requiring a court order. Agents working under the national security 
guidelines did not have those techniques at their disposal. We have 
eliminated this differential treatment in the consolidated guidelines. 
As discussed in more detail below, the consolidated guidelines also 
reflect a more comprehensive approach to oversight.
II.Uniform Standards
    The guidelines provide uniform standards, to the extent possible, 
for all FBI investigative and intelligence gathering activities. They 
are designed to provide a single, consistent structure that applies 
regardless of whether the FBI is seeking information concerning federal 
crimes, threats to national security, foreign intelligence matters, or 
some combination thereof The guidelines are the latest step in moving 
beyond a reactive model (where agents must wait to receive leads before 
acting) to a model that emphasizes the early detection, intervention, 
and prevention of terrorist attacks, intelligence threats, and criminal 
activities. The consolidated guidelines also reflect the FBI's status 
as a full-fledged intelligence agency and member of the U.S. 
Intelligence Community. To that end, they address the FBI's 
intelligence collection and analysis functions more comprehensively. 
They also address the ways in which the FBI assists other agencies with 
responsibilities for national security and intelligence matters.
    The issuance of these guidelines represents the culmination of the 
historical evolution of the FBI and the policies governing its domestic 
operations that has taken place since the September 11, 2001, terrorist 
attacks. In order to implement the decisions and directives of the 
President and the Attorney General, to respond to inquiries and 
enactments of Congress, and to incorporate the recommendations of 
national commissions, the FBI's functions needed to be expanded and 
better integrated to meet contemporary realities. For example, as the 
WMD Commission stated:

        [C]ontinuing coordination . . . is necessary to optimize the 
        FBI's performance in both national security and criminal 
        investigations . . . . [The] new reality requires first that 
        the FBI and other agencies do a better job of gathering 
        intelligence inside the United States, and second that we 
        eliminate the remnants of the old ``wall'' between foreign 
        intelligence and domestic law enforcement. Both tasks must be 
        accomplished without sacrificing our domestic liberties and the 
        rule of law, and both depend on building a very different FBI 
        from the one we had on September 10, 2001. (Report of the 
        Commission on the Intelligence Capabilities of the United 
        States Regarding Weapons of Mass Destruction 466, 452 (2005))

    To satisfy these objectives, the FBI has reorganized and reoriented 
its programs and missions, and the guidelines for FBI operations have 
been extensively revised over the past several years. For example, the 
Attorney General issued revised versions of the principal guidelines 
governing the FBI's criminal investigation, national security 
investigation, and foreign intelligence collection activities 
successively in 2002, 2003, and 2006.
    Despite these revisions, the principal directives of the Attorney 
General governing the FBI's conduct of criminal investigations, 
national security investigations, and foreign intelligence collection 
have persisted as separate documents that impose different standards 
and procedures for comparable activities. Significant differences exist 
among the rules these separate documents set for core FBI functions. 
For example, even though activities that violate federal criminal laws 
and activities that constitute threats to the national security 
oftentimes overlap considerably, FBI national security investigations 
have been governed by one set of rules and standards, while a different 
set of rules and standards has applied to the FBI's criminal 
investigations generally. These differences have created unfortunate 
situations where the same kind of activity may be permissible for a 
criminal investigation but may be prohibited for a national security 
investigation.
    As an example of how the prior guidelines treated comparable 
activities differently based on how those activities were categorized, 
consider the question of what the FBI can do in public places. Under 
the multiple guidelines regime, the rules were different if the FBI 
received a tip that a building was connected to organized crime as 
opposed to a tip that the building was connected to a national security 
matter, such as international terrorist activity. The rules for how 
long the FBI could sit outside the building, or whether the FBI could 
follow someone exiting the building down the street, were different; 
specifically, more restrictive on the national security side and 
difficult to apply. It makes no sense that the FBI should be more 
constrained in investigating the gravest threats to the nation than it 
is in criminal investigations generally.
    Similarly, under the prior guidelines, human sources--that is, 
``informants'' or ``assets''--could be tasked proactively to ascertain 
information about possible criminal activities. Those same sources, 
however, could not be proactively tasked to secure information about 
threats to national security, such as international terrorism, unless 
the FBI already had enough information to predicate a preliminary or 
full investigation.
    The consolidated guidelines we are discussing today carry forward 
and complete this process of revising and improving the rules that 
apply to the FBI's operations within the United States. The new 
guidelines integrate and harmonize these standards. As a result, they 
provide the FBI and other affected Justice Department components with 
clearer, more consistent, and more accessible guidance for their 
activities by eliminating arbitrary differences in applicable standards 
and procedures dependent on the labeling of similar activities 
(``national security'' versus ``criminal law enforcement''). In 
addition, because these guidelines are almost entirely unclassified, 
they will make available to the public the basic body of rules for the 
FBI's domestic operations in a single public document.
III. Coordination and Information Sharing
    In addition to the need to issue more consistent standards, the 
FBI's critical involvement in the national security area presents 
special needs for coordination and information sharing with other DOJ 
components and Federal agencies with national security 
responsibilities. Those components and agencies include the 
Department's National Security Division, other U.S. Intelligence 
Community agencies, the Department of Homeland Security, and relevant 
White House agencies and entities. In response to this need, the 
notification, consultation, and information-sharing provisions that 
were first adopted in the 2003 NSIG are perpetuated in the new 
guidelines.
IV. Intelligence Collection and Analysis
    Additionally, the new guidelines carry out a significant area of 
reform by providing adequate standards, procedures, and authorities to 
reflect the FBI's character as a full-fledged domestic intelligence 
agency--with respect to both intelligence collection and intelligence 
analysis--and as a key participant in the U.S. Intelligence Community.
    In relation to the collection of intelligence, legislative and 
administrative reforms expanded the FBI's foreign intelligence 
collection activities after the September 11, 2001, terrorist attacks. 
These expansions have reflected the FBI's role as the primary collector 
of intelligence within the United States--whether it is foreign 
intelligence or intelligence regarding criminal activities. Those 
reforms also reflect the recognized imperative that the United States' 
foreign intelligence collection activities inside the United States 
must be flexible, proactive, and efficient in order to protect the 
homeland and adequately inform the United States' crucial decisions in 
its dealings with the rest of the world. As the WMD Commission stated 
in its report:

        The collection of information is the foundation of everything 
        that the Intelligence Community does. While successful 
        collection cannot ensure a good analytical product, the failure 
        to collect information . . . turns analysis into guesswork. And 
        as our review demonstrates, the Intelligence Community's human 
        and technical intelligence collection agencies have collected 
        far too little information on many of the issues we care about 
        most. (Report of the Commission on the Intelligence 
        Capabilities of the United States Regarding Weapons of Mass 
        Destruction 351 (2005))

    The new guidelines accordingly provide standards and procedures for 
the FBI's foreign intelligence collection activities that are designed 
to meet current needs and realities and to optimize the FBI's ability 
to discharge its foreign intelligence collection functions.
    In addition, enhancing the FBI's intelligence analysis capabilities 
and functions has consistently been recognized as a key priority in the 
legislative and administrative reform efforts following the September 
11, 2001, terrorist attacks. Both the Joint Inquiry into Intelligence 
Community Activities and the 9/11 Commission Report have encouraged the 
FBI to improve its analytical functions so that it may better ``connect 
the dots.''

        [Counterterrorism] strategy should . . . encompass specific 
        efforts to . . . enhance the depth and quality of domestic 
        intelligence collection and analysis . . . . [T]he FBI should 
        strengthen and improve its domestic [intelligence] capability 
        as fully and expeditiously as possible by immediately 
        instituting measures to . . . significantly improve strategic 
        analytical capabilities . . . . (Joint Inquiry into 
        Intelligence Community Activities Before and After the 
        Terrorist Attacks of September 11, 2001, S. Rep. No. 351 & H.R. 
        Rep. No. 792, 107th Cong., 2d Sess. 4-7 (2002) (errata print).)
        A ``smart'' government would integrate all sources of 
        information to see the enemy as a whole. Integrated all-source 
        analysis should also inform and shape strategies to collect 
        more intelligence . . . . The importance of integrated, all-
        source analysis cannot be overstated. Without it, it is not 
        possible to ``connect the dots.'' (Final Report of the National 
        Commission on Terrorist Attacks Upon the United States 401, 408 
        (2004))

    The new guidelines accordingly incorporate more comprehensive and 
clear authorizations for the FBI to engage in intelligence analysis and 
planning, drawing on all lawful sources of information. The guidelines 
will allow the FBI to do a better job of being an intelligence-driven 
agency.
    To be an intelligence-driven agency, the FBI needs to be asking 
questions. What is the threat within our environment? To give an 
example, without the new quidelines, if the question were asked of a 
Special Agent in Charge (SAC) of an FBI field office, ``Do you have a 
problem of theft of high technology or theft of classified information 
within your domain?'' the answer would be phrased in terms of how many 
cases were open. But the number of cases open is a reflection only of 
what has already been brought to the FBI's attention; it is not an 
accurate measure of the true scope of a given risk.
    The new guidelines will allow the FBI fundamentally to change who 
it approaches in answering the types of questions that we believe this 
Committee and the American people would like it to be answering. If a 
field office is seeking to assess whether it has a substantial threat 
within its area of responsibility of theft of classified or sensitive 
technology, it might begin the analytic work necessary to reach a 
conclusion by considering whether there are research universities in 
the area that are developing the next generation of sensitive 
technology or doing basic research that will contribute to such 
technology and considering whether there are significant defense 
contractors in the area. From there, the field office should compare 
those potential vulnerabilities with specific intelligence regarding 
the intentions of foreign entities to unlawfully obtain sensitive 
technology.
    If an SAC determines that, within his or her area of 
responsibility, sensitive technology is being developed at a local 
university that is of interest to foreign powers, the SAC should then 
determine whether there are individuals within the field office's area 
of responsibility that pose a threat to acquire that technology 
unlawfully. In this example, a logical place to start would be to look 
at the student population to determine whether any are from or have 
connections to the foreign power that is seeking to obtain the 
sensitive technology.
    Under existing guidelines, agents are essentially limited to 
working overtly to narrow the range of potential risks from the 
undoubtedly over-inclusive list of students with access. They can talk 
to existing human sources, and they can ask them: ``Do you know 
anything about what's going on at the school? Do you know any of these 
students?'' If the agent does not have any sources that know any of the 
students, then the assessment is essentially stopped from a human 
source perspective, because recruiting and tasking sources under the 
national security guidelines is prohibited unless a preliminary 
investigation is open. Similarly, the agent also cannot do a pretext 
interview without a preliminary investigation open, but the agent does 
not have enough information at that point to justify opening a 
preliminary investigation. An overt interview in the alternative may be 
fine in a wide range of scenarios, but could result in the end of an 
investigation by tipping off a potential subject of that investigation.
    At the end of the day, the inability to use techniques such as 
recruiting and tasking of sources, or engaging in any type of interview 
other than an overt one, was inhibiting the FBI's ability to answer 
these types of intelligence-driven questions.
    The ability to use a wider range of investigative techniques at the 
assessment stage, prior to the opening of a predicated investigation, 
is a critical component of the FBI's transformation into an 
intelligence-driven organization. Since 2003, we have had the ability 
to conduct threat assessments to answer questions such as whether we 
have vulnerabilities to or a problem with the theft of sensitive 
technology in a particular field office. With the new consolidated 
guidelines, the FBI will now have the tools it needs to ascertain the 
answer to those questions more efficiently and effectively.
V. Oversight and Privacy and Civil Liberties
    The new guidelines take seriously the need to ensure compliance and 
provide for meaningful oversight to protect privacy rights and civil 
liberties. They reflect an approach to oversight and compliance that 
maintains existing oversight regimes that work and enhances those that 
need improvement.
    As a result of the stand up of the National Security Division, and 
the reports by the Inspector General on the use of National Security 
Letters, the Department and the FBI have been engaged in extensive 
efforts to reexamine and improve our oversight and compliance efforts 
in the national security area. Our assessment has been that oversight 
in the criminal arena is provided through the close working 
relationship between FBI agents and Assistant U.S. Attorneys (AUSAs), 
as well as the oversight that comes naturally in an adversarial system 
for those investigations that ripen into prosecutions. Oversight on the 
national security side is different because of more limited AUSA 
involvement and because ultimate criminal prosecutions are less 
frequent in this area.
    Traditionally, on the national security side, oversight was 
accomplished through two primary means: notice and reporting to then-
Office of Intelligence Policy and Review, now a part of the National 
Security Division, and through filings with the FISA Court. We believe 
that conducting oversight in this manner was not as effective as the 
system set forth in the new guidelines. The prior oversight system was 
based primarily on reporting and generated many reports from the FBI to 
the Department that did not provide meaningful insight into the FBI's 
national security investigations. Thus, the Department's oversight 
resources were not focused on those activities that should have been 
the highest priority--namely, those activities that affected U.S. 
persons. Moreover, to the extent that the process relied in part in 
filings with the FISA court for more in-depth oversight, it was under-
inclusive. Many national security investigations proceed without ever 
seeking or obtaining an order from the FISA Court. The guidelines 
establish an approach to oversight that focuses the Department's 
oversight efforts on protecting the civil liberties and privacy rights 
of Americans in all national security investigations.
    The new guidelines accomplish oversight on the national security 
side in a number of ways. The guidelines require notifications and 
reports by the FBI to the National Security Division concerning the 
initiation of national security investigations and foreign intelligence 
collection activities in various contexts. They also authorize the 
Assistant Attorney General for National Security to requisition 
additional reports and information concerning such activities. 
Additionally, many other Department components and officials are 
involved in ensuring that activities under the guidelines are carried 
out in a lawful, appropriate, and ethical manner, including the Justice 
Department's Office of Privacy and Civil Liberties and the FBI's 
Privacy and Civil Liberties Unit, Inspection Division, Office of 
General Counsel, and Office of Inspection and Compliance. A significant 
component of the oversight that will be provided by the National 
Security Division will come in the form of ``National Security 
Reviews,'' which are the in-depth reviews of national security 
investigations that the National Security Division and the FBI's Office 
of General Counsel commenced following the Inspector General's report 
on National Security Letters in 2007.
    Moreover, the new guidelines carry over substantial privacy and 
civil liberties protections from current investigative guidelines. They 
continue to prohibit the FBI from investigating or maintaining 
information on United States persons in order to monitor activities 
protected by the First Amendment or the lawful exercise of other rights 
secured by the Constitution or laws of the United States. In connection 
with activities designed to collect foreign intelligence in response to 
Intelligence Community requirements, where the lawful activities of 
U.S. persons can be implicated, the guidelines require the FBI to 
operate openly and consensually with U.S. persons, if feasible. 
Additionally, as the Attorney General emphasized when he testified 
before the Senate Judiciary Committee, the guidelines prohibit 
practices (such as racial or ethnic ``profiling'') that are prohibited 
by the Guidance Regarding the Use of Race by Federal Law Enforcement 
Agencies.
    The issue of how investigators may take race, ethnicity, or 
religion into account during an investigation is a difficult question, 
but it is not a new question. We have long recognized that it is not 
feasible to prohibit outright the consideration of race, ethnicity or 
religion--the description of a suspect may include the race of the 
perpetrator, and groups (such as Aryan Brotherhood, La Cosa Nostra, or 
the IRA) that are under investigation may have membership criteria that 
tie to race, ethnicity, or religion. But it is also the case that it 
cannot be, and should not be, permissible to open an investigation 
based only on an individual's perceived race, ethnicity, or religion. 
We believe that the balance struck in 2003 in this regard--reflected in 
the Attorney General's Guidance Regarding the Use of Race by Federal 
Law Enforcement Agencies--is the appropriate one, and we have not 
changed that balance.
    These guidelines continue to require notice to appropriate 
Department officials when investigations involve domestic public 
officials, political candidates, religious or political organizations, 
or the news media. Moreover, as a matter of FBI policy, the FBI imposes 
higher levels of approval on many activities that have an academic 
nexus, reflecting the American tradition of academic freedom in our 
institutions of higher learning.
    Finally, these guidelines operate in conjunction with numerous 
privacy and civil liberties officials and components within the FBI and 
Department of Justice. As mentioned earlier, the vast majority of the 
new guidelines will be made available to the public, thereby providing 
the public with more ready access to the rules governing FBI activities 
within the United States. Before the consolidated guidelines take 
effect, the FBI will carry out comprehensive training to ensure that 
their personnel understand these new rules and will be ready to apply 
them in their operations. Indeed, this training is already underway. 
The FBI is also developing appropriate internal policies to implement 
and carry out the new guidelines. These policies cannot afford agents 
or supervisors more flexibility than the guidelines themselves but can, 
and in several cases do, set forth additional restrictions.
VI. Conclusion
    Over the last seven years, the FBI has altered its organizational 
structure, and the Attorney General has issued new policies to guide 
the FBI as it seeks to protect the United States and its people from 
terrorism, intelligence threats, and crime, while continuing to protect 
the civil liberties and privacy of it citizens. The changes reflected 
in the new guidelines are necessary in order for the FBI to continue 
its important transformation to being an intelligence-driven 
organization. We believe that using intelligence as the strategic 
driver for the FBI's activities will improve its ability to carry out 
its national security, criminal law enforcement, and foreign 
intelligence missions.
    Thank you again for the opportunity to discuss these issues with 
you, and we will be happy to answer any of your questions.
    Chairman Rockefeller. Thank you.
    Ms. Cook, have the guidelines changed in any way since our 
staff was able to see them?
    Ms. Cook. We have been discussing a number of changes 
internally in response to the very thoughtful suggestions that 
your staff has given us, that we have received from other staff 
as well and the outside groups that we had met with. We have 
not yet come to rest on final language, and there is not a new 
draft. It continues to be a work in progress. We would assume 
it would continue to be a work in progress after this hearing 
as well.
    Chairman Rockefeller. Were there some pretty basic areas 
involved? I mean, can you talk about the areas?
    Ms. Cook. I'm happy to talk about some of the areas. One 
area that was brought to our attention during the briefing with 
members of this Committee, in particular, the staff, was how we 
had folded in the 1976 guidelines dealing with civil disorders 
and demonstrations.
    We do anticipate revisiting some of the decisions that we 
made when we did fold those into the consolidated guidelines 
with respect to potential time limits on the investigation, the 
techniques that would be available, and ensuring that these 
types of investigations remain the narrowly focused types of 
investigations that they were always intended to be. That is 
one area where I think we would anticipate fairly significant 
changes from the draft that we had previously circulated.
    Chairman Rockefeller. The civil disorders referred to, are 
they any kind of civil disorders, or are they intelligence 
related or foreign related or somebody's been interviewed and 
didn't like what they were asked at pretext interview?
    Ms. Cook. The 1976 guidelines on civil disorders and 
demonstrations covered essentially two types of activities. 
Civil disorders, the basic question is essentially whether or 
not you have a riot situation that is sufficiently dangerous 
that you should call in the federal troops. So the precise 
question that is being asked of the FBI is to gather 
intelligence to inform the President's decision as to whether 
or not to call in the troops. So that's the civil disorder 
side.
    Chairman Rockefeller. I understand. So that's intelligence 
relating to a non-intelligence event?
    Ms. Cook. Exactly.
    Chairman Rockefeller. Right. Will the guidelines be 
released at some point? I mean, obviously if it's a work in 
progress you can't release them until they're done. What do you 
think the timeline will be on that?
    Ms. Cook. We do hope to wrap this project up in the very 
near term. As Ms. Caproni indicated, this has been going on for 
about 18 months. But one of our goals in combining and 
consolidating the guidelines was to try and make them as public 
as possible.
    Some of the guidelines that we were folding in and 
consolidating had been largely classified. And we believe that 
approximately 99 percent of the final set of consolidated 
guidelines will be not only unclassified, but publicly 
available.
    Chairman Rockefeller. I think that's a wise thing to do.
    Ms. Caproni, if you would, describe the kind and extent of 
the physical surveillance that will now be allowed during 
threat assessments.
    Ms. Caproni. It would be any sort of physical surveillance 
that doesn't involve intrusion into a constitutionally 
protected area. So it's surveillance that does not involve or 
doesn't implicate someone's reasonable expectation of privacy 
such that a warrant would be required.
    So we could follow someone. We could follow a car. We could 
watch the outside of a building or a facility, anything that's 
public that you wouldn't need a warrant in order to do it.
    Chairman Rockefeller. Okay. Will the authority or this 
particular authority allow the FBI to follow a law-abiding U.S. 
citizen or a permanent resident all day or for many days 
without grounds to believe that the person followed is engaged 
in activities that endanger the national security?
    Ms. Caproni. It could, but let me explain that further. 
We've imposed some structure on an assessment. So you have to 
open it, and you have to describe what you're doing, what's the 
purpose of it, what do you want to achieve. And that purpose 
has to be an authorized purpose. It has to be within FBI's 
mission.
    So the description of what we're doing has to be provided 
to the supervisor for certain types of assessment. For limited 
checking of leads, there are slightly different rules. So the 
agent needs to describe what it is they're doing. In order to 
engage in surveillance, they need a supervisor's approval, and 
they need to, again, describe the purpose is of the 
surveillance. Is there a goal of the surveillance that is 
within the parameters of the assessment that they've described?
    So it is conceivable that you would have someone who, for 
reasons that are sufficient to the assessment, we're trying to 
figure out whether there is a relationship between two people, 
because we have had some reason to believe that there might be 
and that there might be either a corrupt or an illegal 
relationship or that one or the other of them is an 
intelligence officer. There are lots of different reasons why 
you might need to engage in surveillance. And you want to know 
where the person lives, and you want to know where he works.
    And so, you may well follow that person to ascertain where 
he lives and where he works. And that could be surveillance for 
a day. All of this would be, again, in non-privacy protected 
areas. So it's conceivable. It would depend on what the purpose 
is.
    Chairman Rockefeller. Thank you.
    The Vice Chairman.
    Vice Chairman Bond. Thank you very much, Mr. Chairman.
    You know, Ms. Caproni, we've heard a lot of criticisms, as 
you might expect, that it's broad, new powers. But it seems to 
me the point is just to give the FBI a simple set of rules to 
follow in both criminal and national security investigations. 
Can you set the record straight directly on that point?
    Ms. Caproni. Our goal in issuing a consolidated set of 
guidelines was to ensure that the FBI agents had a clear, 
consistent and rational set of guidelines to be following when 
they were doing investigations of potential crimes, threats to 
national security or intelligence gathering, foreign 
intelligence gathering. We thought it was important, not just 
for the agents, but also the American public to see that there 
was one set of clear and coherent rules.
    We did also revisit the decisions that had been made in 
2002 and 2003 to have different techniques available under 
general crimes guidelines as opposed to the national security 
guidelines. And based on our information as to how those 
guidelines worked out in the field, we determined that it no 
longer was rational to have those types of distinctions and, in 
fact, was impeding the FBI from becoming the intelligence-
driven agency that we've asked them to become.
    Vice Chairman Bond. Based on your former federal prosecutor 
experience, I guess that it makes sense. Should this not 
improve the FBI's ability to prevent and respond to national 
security threats?
    Ms. Caproni. We believe that this will allow the FBI to 
take additional necessary steps to becoming a more proactive 
organization. One of the key issues that we think the FBI needs 
to be able to do is assess potential risks and vulnerabilities. 
Having these additional techniques available at the assessment 
level, we think, will be key to the FBI's ability to 
efficiently and effectively answer those questions and assess 
risks.
    Vice Chairman Bond. Sounds reasonable.
    Ms. Caproni, just to follow up and I think to state it 
positively with what you implied to the Chairman, if 
surveillance goes into an area where an individual has an 
expectation of privacy, will the FBI be required to get a 
warrant? And can you give us an example of that instance in 
which they would have to move from just the assessment 
indicating a warrant?
    Ms. Caproni. Sure. Obviously the guidelines can't change 
the Constitution.
    Vice Chairman Bond. Right.
    Ms. Caproni. But if we're intruding into an area where 
there is a reasonable expectation of privacy, the agent either 
has to stop or they have to go get a warrant. A warrant is 
not--a search warrant is not an authorized technique for an 
assessment.
    So if they're in a situation where something happens and 
they want a search warrant, they're, first off, going to need 
to open an investigation. They're going to have to show that 
they have sufficient reason or sufficient factual predicate 
that someone's either committing a crime or they're a terrorist 
or a spy in order to get supervisory approval to open an 
investigation.
    If they don't have that, they're not going to be able to 
persuade a magistrate to give them a search warrant, because 
that requires probable cause. So they would need to take those 
steps.
    An example might be: suppose there had been some reason to 
be concerned about what was happening at a particular storage 
locker. And so, the agents sit and watch the storage locker. 
And what they see is someone going in and out and taking 
fertilizer in and out of the storage locker.
    That's probably enough, under the circumstances, assuming 
we're not in a farm area and it's not a logical place to store 
your fertilizer. There's a logical inference that that person 
is up to something. That would be enough to open an 
investigation, probably enough to get a search warrant, 
depending on what they want to do with the fertilizer. But they 
may want to substitute it for less volatile materials.
    They would have to open an investigation and then go to a 
judge in order to get a warrant to do whatever it is they 
wanted to do relative to what was contained within the storage 
locker.
    Vice Chairman Bond. Okay.
    Ms. Caproni. But that would, again, be an example. If I 
might just go back to the Chairman's question where it could be 
that we got a bum tip on the storage locker and we're watching 
the storage locker and what we see is, in fact, someone who is 
engaged in perfectly lawful activity--putting the excess from 
his attic.
    Vice Chairman Bond. Loading the fertilizer in his tractor 
spreader.
    Ms. Caproni. Correct.
    Vice Chairman Bond. That's different. Okay.
    Ms. Cook, one final thing. What opportunity have the 
outside privacy national security groups had to offer any 
comments? Do you anticipate any changes based on comments from 
those groups or from Congress?
    Ms. Cook. We have held a series of briefings over the last 
six weeks. We've held three formal briefings to staff up on the 
Hill. We then also had an extensive briefing session with 
numerous outside organizations, both civil rights groups and 
civil liberties and privacy organizations.
    We have also made the guidelines available upon request to 
Members and Committee staff. This has been a six-week process. 
We do anticipate making changes in response to the comments 
that we have received.
    Vice Chairman Bond. Thank you very much, Ms. Caproni and 
Ms. Cook.
    Chairman Rockefeller. Thank you, Mr. Vice Chairman.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    I thank our witnesses. And once again, our Committee is 
back at the intersection where you're talking about how you 
fight terrorism ferociously and at the same time be sensitive 
to the rights of our citizens.
    And my principal reason for concern here, not the two of 
you, is the agency's troubled history in implementing new 
investigative authorities, and particularly you see this most 
recently with the national security letters, which is a very 
clear example of where the agency was given new powers. There 
wasn't adequate guidance. There wasn't adequate internal 
oversight. And the problems have now been well-documented. So 
what I'm interested in is getting at a couple more of these 
concrete examples so I get a sense of exactly how this is going 
to work.
    And I'm going to start with you, Ms. Cook and your 
colleague as well just to give me some insight into how this 
will work.
    If you have an FBI agent, for example, who's looking at 
various intelligence matters and wants to know which employees 
at a particular shoe company are traveling to which foreign 
country, you've got a situation where there's no ongoing 
investigation, no tips, no information, nothing whatsoever, 
that the company or the employees are engaged in or tied to any 
kind of dangerous, illegal activity. If the agent goes to the 
company's headquarters to ask about employee travel habits, 
under the proposed guidelines, can the agent who's making the 
inquiry mislead in any way, in other words, say that they're 
not with the government, something that involves false 
pretenses?
    Ms. Cook. What the consolidated guidelines do is harmonize 
the two previous standards that you had. Under general crimes 
guideline, in your scenario if the question was is the company 
involved in drug trafficking, then an agent could go to the 
company and ask questions without affirmatively revealing 
themselves as an FBI agent or the precise purpose of the visit. 
We have now harmonized that. And if the question instead is are 
there employees who are related to a threat to the national 
security, yes, the FBI agent would have the option of choosing 
not to identify themselves as an FBI agent or, in the 
alternative, not to identify the precise reason for the request 
for information.
    Senator Wyden. Okay. I understand fully your argument with 
respect to convergence. And these are issues that reasonable 
people can differ on. But what you have identified for me is 
that in the intelligence gathering area, the agency would be 
given new powers, A, and be given them in instances where there 
was not the traditional predicate, where there wasn't the tips 
and the information. And that really gets me to my last point 
because you have basically clarified for me the new powers.
    Exactly how is the process of putting in place the controls 
on this going to go forward? You're going to continue the 
discussions, I think you said, with the various public interest 
groups. And that certainly is constructive. And then what will 
happen after that?
    You said you wanted to take into consideration what they 
say and what we say. And again, kudos to you for that. But what 
happens in terms of putting in place the kind of internal 
controls so that four or five months after something like this 
goes into effect, if it does, that you don't have the same 
problems you had with the national security letters?
    Ms. Cook. We are trying to wrap up the guidelines and 
finalize the guidelines in the very near term. But the 
guidelines provide a framework for the FBI. And what you have 
on top of the guidelines are FBI policies that will implement 
the guidelines' provisions themselves. And it's a one-way 
ratchet.
    The policies can only be more restrictive than the 
guidelines themselves. They cannot be more permissive than the 
guidelines. And the policies are binding upon the FBI agents.
    We are continuing to develop those policies. There are 
folks hard at work, I'm guessing right now, at the FBI working 
on those policies. As the Director testified last week, we 
would hope to make those policies, to the extent that we can, 
public as well.
    Senator Wyden. Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Wyden.
    Senator Whitehouse.
    Senator Whitehouse. You all have explained how the FBI 
would connect the purpose of the investigations. Ms. Caproni, I 
think you were the one who described how you would have to 
establish that there is a purpose of the investigation that 
falls within the jurisdictional guidelines that gives the FBI a 
role. Correct?
    Okay, so we have the purpose. And you've vet that against 
the FBI's jurisdiction. That's a fairly simple legal 
determination. And now let's say that it's a go, and you have 
an investigation pursuant to that purpose.
    Now, you have to take humans, subjects of that 
investigation, and you have to connect them to that purpose. 
Correct? It's not enough just that you have the purpose to 
defend national security. If you're going to go out and surveil 
somebody or take some investigative action, there has to be 
some nexus between that individual and the purpose that you 
seek to achieve. Correct?
    Ms. Caproni. Correct. Although I think you've sort of 
jumped several steps in terms of analytically how it would 
happen. But yes, if we get down to the point that we're looking 
at particular people, you have to have some connection between 
the people and your purpose.
    Senator Whitehouse. Well, take me through some of those 
analytical steps that would connect a person to a purpose and 
authorize an FBI agent to investigate some aspect of their 
lives.
    Ms. Caproni. Or assess, we would say, at this point 
because--I'm interpreting your question as being----
    Senator Whitehouse. It's not going to feel much different 
to the person on the other end. So use the word you please.
    Ms. Caproni. Okay. Let's say that the question is, that the 
question that's been posed is, do you have an MS-13 presence in 
your area of responsibility. So the question is, is MS-13 here 
or not. So the agents and the analysts are going to need to do 
a lot of work in order to answer that question.
    Historically the answer to that question would be we have 
two MS-13 cases or we have no MS-13 cases or we have 100 MS-13 
cases. So if they have 100 MS-13 cases, big problem. No cases, 
no problem. Two cases, small problems. But that's not true 
because what all cases reflect is what we know, what's come in 
the door.
    Senator Whitehouse. So the first cut in the analysis is 
organizational. Is an organization that is working against the 
purpose that you seek to achieve and that you've identified 
operating in this area?
    Ms. Caproni. Correct. So then what we need to do is look at 
MS-13 and say what does MS-13 look like. How would we know if 
it's in our territory or not? So cutting through a lot----
    Senator Whitehouse. Let's say you've established that. 
Let's move on to the next step.
    Ms. Caproni. Okay, but that's an important--if I could take 
just a second. So let's say that what we know is is that MS-13 
is associated with several things.
    Senator Whitehouse. I have less than a minute and 53 
seconds left, just so you know.
    Ms. Caproni. Okay. First off, they're almost all Central 
Americans, ex-pats. Second, there are certain graffiti tags 
that are associated with an MS-13 presence. Third, there may be 
certain tattoos that are associated with MS-13. They're very 
specific to MS-13. Fourth, there may be certain criminal 
conduct that MS-13 is particularly engaged in. So you start 
looking at all that.
    Senator Whitehouse. For a nexus between the individual and 
the organization?
    Ms. Caproni. Correct.
    Senator Whitehouse. But you can't include racial----
    Ms. Caproni. But first you're looking at people who are 
potentially--that is, they bear the characteristics that MS-13 
does.
    Senator Whitehouse. Yes.
    Ms. Caproni. So you've got graffiti that's associated with 
them. You've got tattoos that are associated with them. You've 
got criminal conduct that's associated with them. You've got 
Central Americans who are engaged in this conduct. So you've 
got a potential for MS-13 presence based on what you've heard.
    Senator Whitehouse. Yes.
    Ms. Caproni. You may at that point start talking to 
informants. What do you know about these people? Are they MS-
13?
    And so, then you start to narrow down and start to look at, 
well, do you have an MS-13 presence or not. And that may lead 
you to say between informant information and other information, 
police information and the like, you've got some people here 
that look like they may be MS-13.
    Senator Whitehouse. And have you got language at this point 
that describes the nexus that you would require between the 
individual and the organization in the same way that, you know, 
in a search warrant context one would use the phrase probable 
cause or in an undercover investigation into public corruption 
you'd look for predication? What would be the legal terminology 
or the sort of overall description of what you would require in 
order for that nexus to be signed off on by the supervisory 
agent?
    Ms. Caproni. Again, that is for us to take an 
investigative--to take assessment activities relative to a 
particular individual?
    Senator Whitehouse. Yes. What would the benchmark be they'd 
have to meet in the simplest possible terms?
    Chairman Rockefeller. Senator Whitehouse, don't worry about 
time. I'm yielding my time to you.
    Senator Whitehouse. Well, thank you, sir.
    Chairman Rockefeller. So go at it.
    Ms. Caproni. The way we describe it is in terms of fit. So 
we talk about what is the fit between the intelligence that you 
have and the persons that you are looking at. The closer to 
fit, the more likely and more logical it is to approve 
activity. But even with that, you always need to look at what's 
the intrusion level of the activity.
    So to go back to Senator Wyden's question--I realize he's 
not here, but hopefully someone will pass it along--on the 
questions of whether you can use a pretext interview to go talk 
to a particular manufacturer, I would have added to the answer. 
It would depend. Because the question is, is that the least 
intrusive means of getting to the information that you need. 
You're dealing here with an American company. You're dealing 
with Americans.
    To the extent possible, you should be, if you're looking 
for purely foreign intelligence--it wasn't clear from the 
hypothetical what we were looking for--you need to operate 
openly and consensually. Even if you're looking for 
counterterrorism, counterintelligence or criminal information, 
you've still got to be bound by what's the least intrusive 
alternative.
    Going to a public company that we have no reason to believe 
is engaged in any wrongdoing and engaging in a pretext 
interview is a very intrusive step. Why does the FBI need to 
engage in pretext there?
    Senator Whitehouse. I think what I'm hearing is that 
there's kind of a sliding scale between the fit that is 
required of the subject of the assessment to the investigation 
and the technique that you are authorized to use against the 
person. Is that correct?
    Ms. Caproni. That's one of the factors that's looked at 
when analyzing under least intrusive alternatives.
    Senator Whitehouse. So when you said that you could--in the 
answer to the Chairman's question--that you could use any 
technique up to and anything short of what would require a 
warrant, that would also presumably include a pen register?
    Ms. Caproni. No, no, no, no, that's not what I said. The 
Chairman's question had to do with whether we could follow 
someone.
    Senator Whitehouse. Yes.
    Ms. Caproni. And what's the limit of surveillance----
    Senator Whitehouse. You said you could follow them wherever 
you didn't need a search warrant to follow them.
    Ms. Caproni. We were talking about physical surveillance, 
just watching someone. A pen register is not physical 
surveillance. That requires a court order, and it requires at 
least a preliminary investigation to be opened before you can 
do that.
    Senator Whitehouse. I understand that.
    Ms. Caproni. Because you need--there's a required showing 
to a court there. But just for physical surveillance, the limit 
to physical surveillance is I can sit and watch anything or I 
can follow anything so long as I'm not intruding into a Fourth 
Amendment area. But whether that's proper still has to 
evaluated under the least intrusive alternative. So following 
someone around all the time can be intrusive. It depends on 
what--again, it all comes back to what are you looking for.
    Senator Whitehouse. Yes. Well, let me--again, even though 
the Chairman's been generous with my time, I really need to try 
to focus on my questions if I'm going to get through this. So 
let's talk just for a moment about the pen register and the 
trap and trace, which obviously prosecutors need an order, but 
they don't need probable cause.
    Ms. Caproni. Correct.
    Senator Whitehouse. It's a very, very low threshold, 
basically relevant to an investigation there.
    Ms. Caproni. Correct.
    Senator Whitehouse. It's not uncommon to see them referred 
to basically as a wiretap subpoena just because you get the 
paperwork and you go to the phone company, you get the stuff. 
If you've got an individual--let's put it this way. How much 
fit is required for you to get up on a pen register, trap and 
trace on an individual?
    Ms. Caproni. Well, you need at least a preliminary 
investigation opened. So you've got to at least have 
information or allegations.
    Senator Whitehouse. Let me cut to that, then, because 
that's another way of cutting at this. You've got a criminal 
case going on, you know. When you know the crime, you open the 
case, and then you can investigate under the authority of that 
open case.
    Ms. Caproni. Right. Correct.
    Senator Whitehouse. In this matter, it strikes me that the 
open case is essentially the organization. You don't open a 
case for terrorism in this district. You open a case for----
    Ms. Caproni. We've got a misunderstanding here.
    Senator Whitehouse [continuing]. MS-13?
    Ms. Caproni. The area where these guidelines are changing 
things is in the assessment area. You cannot use a pen register 
during an assessment.
    Senator Whitehouse. Period.
    Ms. Caproni. Period, end.
    Senator Whitehouse. Okay.
    Ms. Caproni. Not available.
    Senator Whitehouse. So you can't use it.
    Ms. Caproni. No way, no how.
    Senator Whitehouse. When do you open a case in this area?
    Ms. Caproni. Well, if you have information or allegation 
that the person is or may be one of those things, either 
criminal or a terrorist----
    Senator Whitehouse. You have organization, fit and purpose.
    Ms. Caproni. No, no, no, no, it's a specific. To get to a 
preliminary investigation, you have to have a specific factual 
predicate. It's the same factual predicate you've always had to 
have. So information or allegation of criminality or a threat 
to the national security.
    Senator Whitehouse. All right.
    Ms. Caproni. The assessment, though, is the one step before 
that. And you can't use a pen register then.
    Senator Whitehouse. Okay. That's helpful to know.
    Thank you, Mr. Chairman. I appreciate the indulgence of the 
extra time.
    Chairman Rockefeller. I think the Vice Chairman was about 
to yield his time to you also, which he could do in that he's 
about to leave. And that would give you----
    Vice Chairman Bond. Would you like another half-hour?
    Chairman Rockefeller. No, come on, Sheldon. You're on.
    Senator Whitehouse. How about billing records and payment 
information?
    Ms. Caproni. You can't get that in an assessment. You can 
only get that in a preliminary investigation.
    Senator Whitehouse. Okay.
    Ms. Caproni. Well, let me clarify that slightly. Are you 
talking about billing records and payment records for 
telephones?
    Senator Whitehouse. For telephone calls.
    Ms. Caproni. Yes, you need at least a preliminary 
investigation open.
    Senator Whitehouse. Okay. That was it. Those are my 
questions.
    Chairman Rockefeller. All of that breach of protocol and 
that's all I get for it?
    Senator Whitehouse. Yes, I know. Sorry.
    Chairman Rockefeller. Okay, Ms. Caproni, pretext interview. 
There are some questions in pretext interviews designed to 
obtain information potentially by instilling fear in a person 
or false grounds in a person interviewed. Can that happen? And, 
if so, do you know of an example?
    Ms. Caproni. Is your question, can that happen during an 
assessment or can that happen during a pretext interview?
    Chairman Rockefeller. Pretext interview.
    Ms. Caproni. Yes, it could happen during a pretext 
interview.
    Chairman Rockefeller. And you would use that specifically 
motivated by what desire?
    Ms. Caproni. Okay, now the question comes what is FBI 
policy. And FBI policy is--though it's not entirely set--is 
looking very carefully at the circumstances under which the 
pretext is something that, to use your words, instills fear or 
for whatever reason motivates someone to talk to the agent who 
might not otherwise, who might say go away and leave me alone. 
So we're looking as a matter of policy at how to define that.
    There have never been any restrictions on the criminal side 
in terms of what sort of pretext can be used to get someone to 
talk, including a pretext that is entirely designed to strike 
fear in the heart of the person that the agent approaches. But 
we're looking very carefully at that because, depending on how 
it's used, again, it's not a least intrusive alternative. It is 
a fairly intrusive alternatively, in fact. And so, we're trying 
to set policy around pretext, something that we, frankly, 
again, have never done.
    Chairman Rockefeller. So it's something that you really get 
to a point that it's something which can have value, but also 
causes concern?
    Ms. Caproni. Correct.
    Chairman Rockefeller. And how, therefore, do you surround 
it with some envelope of protection and propriety?
    Ms. Caproni. Correct.
    Chairman Rockefeller. And what you can say is you're 
working on it?
    Ms. Caproni. I'll say I'm working on it. And I'll also say, 
as the Director indicated during the course of testimony and I 
think we've told your staff as well, once we get the policy 
further along so that some of these things that we're debating 
internally have at least somewhat come to rest, we are happy to 
come up and brief your staff and would love the opportunity to 
talk to them about where we've drawn those lines.
    Ms. Cook. If I could add very quickly?
    Chairman Rockefeller. Please.
    Ms. Cook. One effect, we think, of the change in our 
approach to oversight would also be to add additional main 
Justice oversight to precisely these types of questions. 
Historically on the national security side oversight was 
accomplished through notices. So if a preliminary investigation 
was opened or a preliminary investigation was renewed, there 
would be a notice that was given to attorneys in the now 
national security division.
    Or, if agents wanted to avail themselves of FISA tools, 
they would have to go through main Justice attorneys to do so. 
That would not cover assessments. So you have this area where 
the FBI had a fair amount of latitude, and we did not have a 
structured or routinized approach to oversight.
    With the on-site audits that we have instituted and are 
reflected in the guidelines, those will encompass exactly these 
types of decisions and the assessment category. So the 
assessment level, we think, at the end of the day is going to 
be subject to more main Justice oversight than it historically 
has been.
    Chairman Rockefeller. Different subject. Right after 9/11 
we had to pass this ridiculous but crucial law saying that the 
CIA and the FBI could talk to each other. And that was, in 
fact, a national embarrassment, but thank heavens, we did it.
    There was then a period of time where there really wasn't 
much movement on either side. And I don't necessarily mean that 
Bob Mueller and whoever the director was at that time of the 
CIA weren't willing to go back and forth. But as you went down 
the ranks a little bit, the resistance built in.
    Now, I'm not a lawyer, unlike my friend, the Supreme Court 
judge over here. But the thing I always keep in my mind is the 
long, yellow pad. And the FBI agent, law school graduate is 
trained on that. And there are slurs, tons, thousands of agents 
across this country.
    And then, incidentally, you have agents which are their own 
fiefdoms--I mean, you know, agencies which are their own 
fiefdoms. They don't necessarily report everything in. Coleen 
Crowley could tell you something about that.
    But they're trained to do what they do. People in their 
30s, maybe even late 20s, 40s who have been charged with the 
idea of arresting somebody, as they did Moussaoui--great 
mistake--tend to continue to do that so that you can have 
intellectually and willfully in the very top echelons of the 
FBI a determination to combine, as indeed you are here, as you 
combine five things into one, even more so you're taking a 
bifurcated FBI agent and making him into a single source of 
success on both intelligence and criminal arrests.
    There's a great part of me--and I then go to my next 
favorite agency, which used to be called HCFA, where they have 
more people working than the United States government has and 
they have piles and piles and piles and piles of paper, no 
windows. And they're accustomed to doing things in certain 
ways. A pile comes off the top, you know, the first piece comes 
off the top. They do it, and on they go, and on they go. And it 
builds in habits. It's true. It's human nature. It's true in 
all of us.
    Now, I want both of you to give me comfort that this making 
one, not just of the guidelines or other guidelines, which is 
symbolic, in a sense, of making one of the agent, to both do 
when appropriate the criminal and to do the intelligence. It 
takes eight years to make a good intelligence agent. I don't 
know if that's true internally as much as it is external to 
this country, but let's just say that.
    Talk to me about that. And give me some comfort on that. I 
worry about that--that the idea is great, that the intention is 
great, that the leadership is great, but that down the line 
five or six or seven rungs, you know, getting it to the UBL 
unit or whatever it is just doesn't happen.
    Ms. Caproni. I completely understand your question. And 
I'll say that if the only thing we had on this was the new 
agent guidelines my answer would be it's not going to happen. 
The guidelines alone is not the answer.
    The guidelines are part of the answer. The other part of 
the answer is what are you measuring, what are you grading, 
what are you counting. And a lot of what's happened--and I'm 
pretty sure this Committee has been briefed on what we are 
calling the SET process, which is very much a process that is 
designed around continuing the transformation into us being an 
intelligence-driven agency so that there's a constant FIG 
structure so that the people who are running the field 
intelligence groups are able to ask questions and the questions 
they ask, again, are intelligence-driven questions.
    So the hypothetical that I posed is do you have an MS-13 
presence. That's a real question. That's a real question that 
our SACs have been asked. Do you have an MS-13 presence? And 
when they come in to the meetings to discuss this and they say, 
well, we have two cases, what they're told is, that's not an 
answer.
    What we want to know is what have you looked at. You know, 
who's in your community? What are they doing in your community? 
How have you answered the question, no, I don't have an MS-13 
problem?
    And ideally what we want to hear is, I don't have an MS-13 
problem, but I've got a big Bloods and Crips problem that I've 
got to deal with, or I don't have either of these sorts of 
problems. What I have is sort of random street crime, and I 
really need to get on to the task forces with my local police 
because that's what's affecting the community here--street 
crime that's not federal but that we can provide assistance to.
    All of those are really intelligence-driven questions and 
answers that, I think, frankly, the FBI--and they're my client, 
I love them--but they tended to answer questions in terms of 
cases. And cases are a very bad way of answering questions 
because that's simply a reflection of what's come to us as 
opposed to what we've looked hard and analytically at.
    I think people think we do a lot more analytic work to say, 
yes, we have in this community a problem with 
counterintelligence. We've got the right sort of institutions 
in our area so that we've got a financial fraud problem. But I 
think the reality is, if you've got a go-get-'em squad for 
financial fraud, you've got a bunch of financial fraud cases. 
If you've got a go-get-'em Chinese squad, you've got a bunch of 
Chinese counterintelligence cases. And if you don't, you won't.
    What we want to say is that's not the right way to allocate 
resources. We want to know what are your threats, what are your 
vulnerabilities. And in order to get to those, this is really 
being driven from the top, from the Director, and it's being 
driven through the Directorate of Intelligence where people 
have to answer these questions.
    And if they don't answer them, they're not doing well on 
their performance evaluations. They're not doing well on their 
bonuses, all of which affect the willingness for change in the 
bureaucracy that you're talking about among people who came up 
through the criminal system.
    What they want to do and, by God, what they were trained to 
do, is put handcuffs on. Those people have been driven to if I 
want to perform and I want to do well in this organization, I 
have to think from an intelligence-driven perspective. I have 
to be willing to answer those questions, not just solve my 
case.
    And so, I think the answer is the guidelines alone aren't 
enough. But the guidelines are the way with this other activity 
that's going on through the SET process that the FBI will get 
to where we need to get.
    Chairman Rockefeller. I won't go on much more. But is the 
fiefdom nature--and that's the pejorative and I understand that 
and apologize. But the CIA operates as one. Everybody reports 
one way or another up to the top. That's not true in the FBI. 
And if you were trying to de-bifurcate somebody, to make them 
two different entities at the same time, I can't make a direct 
comparison between that and individual jurisdiction and I don't 
have to report to anybody, you know, I'm my own--I'm in charge 
of my own little fiefdom.
    There's something there which is troubling. And if it 
should not be troubling to me, I want you to tell me why. Is 
there any consideration of taking a very old system of that 
sort, given a new responsibility that is intelligence in a 
variety of ways and adjusting that system?
    Ms. Caproni. I think that actually there has been a lot of 
adjustment. And somebody who was an SAC in 2000 would not 
recognize the job of an SAC now, so that the autonomy that the 
SAC used to have--I mean, my example is they were the princes 
and princesses of their territory. They were in charge of the 
territory, and they were in charge of their office.
    That really isn't the case anymore. A lot of stuff is 
headquarters-driven; the entire counterterrorism program is 
directed really from headquarters. The counterintelligence 
program has always really been headquarters-directed anyway. 
The final piece is really this intelligence-driven piece.
    So the intelligence program is very much a headquarters to 
the field. So requirements start at headquarters and they go to 
the field.
    The SAC may not be interested in the particular 
requirement. Whether he or she is interested or not, that 
requirement has to be answered. And so, the direction from the 
headquarters down into the field, while it's not the same model 
as CIA, but what it's achieving is very much a national program 
which goes down through the field offices. So that SAC, they 
have some autonomy, but they don't have the same level of 
autonomy they had 10 years ago. And they've got to respond to 
these intelligence requirements from headquarters.
    And so, I think that the concern that you're articulating 
was--you know, three years ago, four years ago I'm not sure I 
could have said we were there. I think now we're getting 
closer.
    And I would really--I mean, I think it sounds to me like--I 
don't know when you all were last briefed on SET, but it seems 
to me that that would be a valuable thing for the people who 
are running this program and can really explain much better 
than I can exactly how it works to come up and talk to you. 
Because I think they've done a remarkable job of really 
breaking down that wall that you're talking about, the internal 
wall of people and saying to the SACs, you are part of a 
national system and you've got responsibilities nationwide.
    You've got information within your area that we need 
elsewhere. And you can't just hold onto it in your little 
office thinking that you've done your job. If that's all you've 
done, if you've collected the information and it's sitting in 
your files in Kansas or Paducah or Louisville, you have not 
achieved your mission. You haven't done your job. You've got to 
report it out so that other people who need this information 
can use it.
    Chairman Rockefeller. In the CIA obviously there are some 
things which go to the top right away simply because there are 
different forms of collecting it and they come in quickly. But 
for the most part, it's some agent out somewhere in some 
country who is either by himself or with a small team and they 
come up with connections or facts or whatever that are 
interesting. And the CIA leadership knows nothing about them. 
They're told about them. They're told about them.
    To me that's sort of the essence of intelligence. Now, that 
may already be becoming old fashioned the better our listening 
and all the rest of it gets. But I don't think so. So I want 
you to help me understand that with respect to the FBI. The CIA 
tends to be from the ground up. Yours sounds like it's from the 
top down.
    Ms. Caproni. The requirements are from the top down. But 
the requirements can also go from the bottom up. So if an agent 
sees in a case that there are links being made, they're seeing 
connections--and the classic example would be the Phoenix memo.
    So an agent just happens to notice that there are Middle-
Easterners taking flight lessons and it seems odd. What that 
would now do is, rather than him writing a memo and it going to 
headquarters and people kind of shrugging their shoulders and 
saying I don't know what we're going to do about that, instead 
the agent can propose a requirement.
    They can propose that what the agent in Phoenix thinks is 
odd would then be considered to be a requirement. So it would 
go out as an intelligence report that this is what I'm seeing. 
If headquarters says yes, we agree, that is sufficiently odd, 
we want to know if that's going on elsewhere, they can push 
that requirement down.
    So instead of just having one agent in one office thinking, 
gosh, this is odd, instead we're going to say to all agents, we 
want you to go talk to your flight schools. Are you seeing 
people taking flight lessons that seem odd, that something's 
wrong here? And, you know, you can change the facts in a lot of 
different ways, crop dusting or whatever.
    But there's something odd going on here. So we expect, just 
as we expect from the top to be able to say we need to know 
this information from a nationwide perspective, we also expect 
agents to have the initiative to say I'm seeing something 
unusual in my area either because I am on the FIG and I'm 
collecting intelligence and I've got a lot of human assets out 
there who are telling me these things or because I'm working a 
criminal case and I see through my criminal case an odd 
connection that I've never noticed before that, you know, these 
durable medical equipment sellers are dealing with organized 
crime. I've never seen that before. Are you seeing it 
elsewhere?
    And then that would get pushed out, and it would become a 
requirement. So I think our model is not unlike the CIA, where 
there are both things from the top that go down and there are 
things from the bottom that go up.
    Chairman Rockefeller. Okay. Good.
    Senator Feingold?
    Senator Feingold. Mr. Chairman, first let me apologize. I 
certainly was not playing hooky. We were voting on the India 
nuclear deal. So I do apologize for just getting here now.
    Ms. Cook, you said the guidelines are not final, but you 
hope they will be in the near term. Do you still plan to 
implement them by October 1st, as was indicated in the DOJ 
letter last month to Senators Leahy and Specter? And are FBI 
agents already being trained on the new guidelines? And if so, 
how does that work when the guidelines are not yet final?
    Ms. Cook. The October 1 deadline is obviously a deadline 
we're going to have to reevaluate in terms of implementation, 
given the fact that we are making changes based on the 
discussions that we've had over the last six weeks with 
Committee and outside groups. Ms. Caproni can go into more 
detail as to the level of training that has already been under 
way.
    There has been some training and extensive development of 
policies. But you're correct. It cannot be completed, and the 
policies cannot be completed until the guidelines are 
finalized.
    Senator Feingold. So it's not likely to be implemented by 
October 1st?
    Ms. Cook. I think we're going to have to reevaluate the 
October 1 deadline.
    Senator Feingold. Okay.
    Ms. Caproni, you testified in March 2007 that in contrast 
to criminal cases, which are transparent and where agents' 
activities are subject to the scrutiny of a judge, the national 
security side occurs largely without that level of 
transparency. You described this as a concern and testified 
that that imposes upon us a higher obligation to make sure that 
we have a vigorous compliance system, that we have in place the 
training that is necessary, that we'll retrain the agents, so 
that when agents are working in this area we'll make sure they 
know. Do you agree that there is a greater possibility for 
abuse in the national security area?
    Ms. Caproni. I'm not sure that I would say there's a 
greater possibility of abuse. I would say there's not the same 
level--there's not the same public oversight as there is in 
criminal cases. But I think since then there have been several 
changes, specifically the level of oversight that's coming from 
the oversight section of the national security division now 
that it's stood up.
    After that, we, the FBI, instituted what is, as far as I 
know, the first government compliance office. Their purpose is 
to look at our policies, look at what's going on and make sure 
that cooked into our polices are appropriate procedures to 
self-regulate and that there are procedures in place to come 
back around the other side to say, well, are they working. It's 
nice to have a great policy that seems to work, but you need 
some sort of an audit function so that you come back around and 
make sure that it actually is working.
    So we're working with the Department. And I think from the 
national security side what we've tried to substitute for the 
kind of oversight that comes with an AUSA in a criminal case 
are the national security reviews and other oversight that the 
national security division is giving to activities that take 
place at the FBI on the national security side.
    Senator Feingold. I appreciate those efforts, but I just 
want to highlight the inherent difference between national 
security cases and criminal cases. You've alluded to the lack 
of transparency and judicial oversight not being available.
    Ms. Caproni, in January 2007, at an open Intelligence 
Committee hearing I asked FBI Director Pistole about the FBI's 
domain management program, which he described as including the 
collection of information about various community 
``constituencies'' across the country. In fact, he specifically 
mentioned Dearborn, Michigan, which, of course, has a large 
Arab-American and Muslim community.
    Deputy Director Pistole assured me, however, that ``we 
would not be collecting any information in the first place 
unless there was some predication for doing that.'' Under the 
new guidelines is that still accurate?
    Ms. Caproni. I would say that perhaps a better way of 
phrasing that answer now under the new guidelines is they would 
only be collecting information if there is an authorized 
purpose. So within an assessment you could collect information 
on various constituencies. But it's got to be linked back to 
what's the purpose of the assessment. It's got to be 
legitimately within the parameters of an assessment.
    Senator Feingold. Well, it strikes me that a purpose and a 
predicate are different, very different. A predicate means to 
me there's some reason to think we ought to be looking at these 
people as opposed to simply we'd like to do it.
    Ms. Caproni. I don't want to quibble over words. When we 
use the word ``predication,'' we typically are talking about a 
predicated investigation which has historically since the time 
of the Levy guidelines had a very specific meaning. We wouldn't 
be collecting information on anyone unless there is a purpose, 
unless there is a predicate, small p, predicate.
    Senator Feingold. Well, what is the meaning of predicate? 
What is the traditional meaning of predicate then?
    Ms. Caproni. Typically that you have some reason to believe 
a particular person has engaged in either criminal conduct or a 
national security threat.
    Senator Feingold. But you're telling me that a purpose can 
be sufficient without a predicate apparently.
    Ms. Caproni. Again, I'm concerned about the semantics, and 
I don't want to get into that because, again, if we're trying 
to be intelligence-driven and the question is, do you have a 
particular threat in your environment, the threat is to some 
extent the predication. That is, we know that certain foreign 
governments are trying to steal our secrets. The question is 
where.
    So where within the United States is the foreign government 
actually focusing on our secrets? So we've got a predicate 
because we've got a threat. The threat is that our secrets are 
being stolen. Do we have a particular person----
    Senator Feingold. I've got to say that doesn't satisfy my 
understanding what a predicate should be in a situation like 
this. Under that rationale, that purpose can become a 
justification for rooting around into the personal lives of 
everybody in Dearborn, Michigan who might be of that 
background.
    Ms. Caproni. I disagree.
    Senator Feingold. Well, that's my concern. And I do want to 
get into semantics because to me there's a world of difference 
between those words.
    Ms. Caproni. I don't think it gives you the right to root 
around in everyone in Dearborn, Michigan, because, in fact, if 
our intelligence brings us no better than expatriate Saudis, 
then we've got nothing. There's no basis to proceed because the 
fit--we talked a little bit about that with Senator 
Whitehouse--the fit between what you're looking for, the 
threat, and who you're looking at is too loose.
    Because while some people within that community may pose a 
threat, mostly they don't. So you don't have a good fit. You've 
got to do more work to get your universe down closer to the 
threat.
    But all we're saying, Senator, is if you want us to be able 
to answer the question, do you have this threat or do you have 
this problem in your environment, if you limit us to starting 
with someone that we know poses the threat, we are missing the 
threat. We know the threat exists, but we don't know who within 
the environment poses the threat. So we've got to have some way 
to close that gap.
    What we think is these guidelines, with appropriate policy, 
permit us to close that gap but always being respectful that 
you have to use the least intrusive alternative, and you can't 
investigate someone or focus on someone solely because of First 
Amendment activities, race or ethnicity. There has to be 
something more.
    And, again, from a policy level what we're going to be 
training on is--and you need a good fit. It doesn't necessarily 
have to be a perfect fit because it's not always going to be 
perfect. We're not always going to be that good. But if it's no 
better than all your ex-pat Saudis in Dearborn, you've got 
nothing.
    Senator Feingold. I'm trying not to take away too much 
time, but this is a very important discussion about, you know, 
the difference between all the ex-pat Saudis and then somebody 
that you have a very specific information on. That in-between 
area is terribly important, not only in terms of posing the 
threat, but also in terms of the rights of people that aren't 
doing anything wrong. But I appreciate the conversation.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Do you want to continue?
    Senator Feingold. No, I'm fine.
    Chairman Rockefeller. Okay. We're going to close. First I 
have an exciting announcement. I ask unanimous consent that the 
Chairman in consultation with the Vice Chairman be authorized 
to make a part of the record statements and letters received in 
connection with this hearing.
    If you've gotten over that excitement, I want to tell you 
both that you were absolutely superb. There's sort of a very 
direct way of answering questions, which sometimes people at 
higher levels don't do. So I feel very happy. And we will all 
be working on this together.
    The hearing is adjourned.
    [Whereupon, at 3:58 p.m., the Committee adjourned.]

</pre></body></html>
